IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT
No. 384 MAL 2020

STEVEN BURDA
Petitioner

Petition for Allowance of Appeal
from the Order of the
Commonwealth Court

v.
DEPARTMENT OF HUMAN SERVICES
Respondent
ORDER

PER CURIAM
AND NOW, this 29th day of December, 2020, the Petition for Allowance of Appeal
is DENIED. The Application for Transfer & Review of Complete Certified Record from
Commonwealth Court at Docket 162 CD 2018 is DENIED.

2:55 P.M.

Sealed Record

Allocatur Docket Sheet

Supreme Court of Pennsylvania

Docket Numbei^384 MAL 2020
Page 1 of 4

""

May 6, 2021
CAPTION
Steven Burda, Petitioner
v.
Department of Human Services, Respondent
CASE INFORMATION
Initiating Document:

Petition for Allowance of Appeal

Case Status:

Closed

Journal Number:
Case Category:

Administrative Agency

Case Type(s):

CONSOLIDATED CASES

Human Services, Department of

RELATED CASES

COUNSEL INFORMATION
Pro Se:
Address:
Phone No:
Receive Mail:
Pro Se:
Pro Se:
IFP Status:
Attorney:
Address:
Phone No:
Receive Mail:
Receive EMail:
Representing:
Pro Se:
IFP Status:

Burda, Steven
1171 Thrush Lane
Audubon, PA 19403
(215) 720-5205
Yes
Burda, Steven, Petitioner
Yes
Denied
Leisch, Doris M.
PA Department of Human Services
625 Forster Street
Harrisburg, PA 17120
(717)783-2800
Yes
Email:
Yes
Department of Human Services, Respondent
No

Attorney:

Jenkins, Dale T.

Address:

PA Dept of Human Services
7th & Forster Streets
Health & Welfare Bldg, 3rd Floor West
Harrisburg, PA 17120-0001

Phone No:
■Receive-Mail:Receive EMail:
Representing:
Pro Se:
IFP Status:

(717)783-2800
-YesYes
Email:
Department of Human Services, Respondent
No
Neither the Appellate Courts nor the Administrative Office of Pennsylvania Courts assumes any liability
for inaccurate or delayed data, errors or omissions on the docket sheets.

2:55 P.M.

Sealed Record

Allocatur Docket Sheet

Supreme Court of Pennsylvania

Docket Number: 384 MAL 2020
Page 2 of 4
May 6, 2021
SUPREME COURT INFORMATION
Appeal From:
Appeal Filed Below:
Probable Jurisdiction Noted:

Docketed Date:

July 14, 2020

Allocatur/Miscellaneous Granted:

Allocatur/Miscellaneous Docket No.:

Allocatur/Miscellaneous Grant Order:
FEE INFORMATION
Fee Amt Receipt Dt

Fee Dt

Fee Name

02/28/2020

Petition for Allowance of Appeal Filed
Reason Waived: Collected on Temp Docket
Petition for Reconsideration

01/12/2021

Receipt No

Receipt Amt

90.25
15.00 01/13/2021

2021-SUP-M-000050

15.00

INTERMEDIATE APPELLATE COURT INFORMATION
Court Name:
Date of Order:

Commonwealth
December 17, 2019

Judge(s):

Simpson, Robert E.
Covey, Anne E.
Ceisler, Ellen

Intermediate Appellate Court Action:
Referring Court:

Docket Number:
162 CD 2018
Rearg/Recon Disp Date: I February 5, 2020
Rearg/Recon Disposition A Denied

Affirmed

AGENCY/TRIAL COURT INFORMATION
Court Below:

Department of Human Services, Bureau of Hearings and Appeals
Division: Department of Human Services, Bureau of Hearing

County:
Date of Agency/Trial Court Order:
Docket Number:

February 2, 2018

460566050-109M, -110M (REMAND)
OTN:

Judge(s):
Order Type:

Order
ORIGINAL RECORD CONTENT
Filed Date

Original Record Item

Content/Description

Record Remittal:
REARGUMENT / RECONSIDERATION / REMITTAL
Filed Date:
Disposition:
Reargument Order:

January 12, 2021
February 10, 2021
Order Denying Application for
Date:
-Reconsideration-----------------AND NOW, this 10th day of February, 2021, the Petitioner's Application for Reconsideration is
DENIED.

Record Remittal:
Neither the Appellate Courts nor the Administrative Office of Pennsylvania Courts assumes any liability
for inaccurate or delayed data, errors or omissions on the docket sheets.

/

2:55 P.M.

Sealed Record

Allocatur Docket Sheet

Supreme Court of Pennsylvania

Docket Number: 384 MAL 2020
Page 3 of 4
May 6, 2021
DISPOSITION INFORMATION
Judgment Date:

Related Journal No:
Category:

Decided

Disposition Author:

Per Curiam

Disposition:

Order Denying Petition for
Allowance of Appeal

Disposition Date:

December 29, 2020

Author:

Dispositional Filing:
Filed Date:

DOCKET ENTRY
Filed Date

Docket Entry / Representing

February 28, 2020

Petition for Allowance of Appeal

July 14, 2020

Participant Type

Filed By

Petitioner

Burda, Steven

Case was transferred from 96 MT 2020
Office of the Prothonotary

Comments:
Pleadings Perfected
August 27, 2020

Application for Transfer & Review of Complete Certified Record from Com. Court at Dkt
162 CD 2018
Petitioner
Burda, Steven

September 10, 2020

No Answer Letter to Application
Respondent

December 29, 2020

Department of Human Services

Order Denying Petition for Allowance of Appeal
Per Curiam

Comments:
AND NOW, this 29th day of December, 2020, the Petition for Allowance of Appeal is DENIED. The Application for
Transfer & Review of Complete Certified Record from Commonwealth Court at Docket 162 CD 2018 is DENIED.
December 29, 2020

Order Exited
Office of the Prothonotary

January 12, 2021

Application for Reconsideration
Petitioner

February 10, 2021

Burda, Steven

Order Denying Application for Reconsideration
Per Curiam

Comments:
AND NOW, this 10th day of February, 2021, the Petitioner's Application for Reconsideration is DENIED.
February 10, 2021

Order Exited
Office of the Prothonotary
CROSS COURT ACTIONS

Docket Number:

162 CD 2018
Neither the Appellate Courts nor the Administrative Office of Pennsylvania Courts assumes any liability
for inaccurate or delayed data, errors or omissions on the docket sheets.

2:55 P.M.

Sealed Record

Supreme Court of Pennsylvania

Allocatur Docket Sheet
Docket Number: 384 MAL 2020
Page 4 of 4
May 6, 2021
CROSS COURT ACTIONS

Docket Number:

96 MT 2020

Neither the Appellate Courts nor the Administrative Office of Pennsylvania Courts assumes any liability
for inaccurate or delayed data, errors or omissions on the docket sheets.

IN THE COMMONWEALTH COURT OF PENNSYLVANIA
Steven Burda,
Petitioner
No. 162 C.D. 2018

v.
Department of Human Services,
Respondent

ORDER
AND NOW, this 17th day of December 2019, the order of the
Department of Human Services, Bureau of Hearings and Appeals, is AFFIRMED.
s

ROBERT SIMPSONJ Judge

Certified from the Record

DEC 17 2019
And Order Exit

LM
IN THE COMMONWEALTH COURT OF PENNSYLVANIA
Steven Burda,
Petitioner
No. 162 C.D. 2018
Submitted: April 5, 2019

v.
Department of Human Services,
Respondent
BEFORE:

HONORABLE ROBERT SIMPSON, Judge1
HONORABLE ANNE E. COVEY, Judge
HONORABLE ELLEN CEISLER, Judge

OPINION NOT REPORTED
MEMORANDUM OPINION
BY JUDGE SIMPSON

FILED:

December 17,2019

After repeated appeals and prior adjudications in this prolonged human
services case, Steven Burda (Applicant), representing himself, petitions for review
of a final order of the Department of Human Services (Department), Bureau of
Hearings and Appeals (BHA). Therein, the BHA affirmed an Administrative Law
Judge’s (ALJ) order denying his appeals from two Montgomery County Assistance
Office (CAO) decisions.

Specifically, Applicant appealed the CAO notices

discontinuing both Supplemental Nutrition Assistance Program (SNAP) benefits2 for
Applicant and his family,3 and Medical Assistance (MA) benefits for Applicant, his
wife, A.B. (Wife), and his daughter, C.B. (Daughter), when their household income
exceeded eligibility limits. Discerning no error below, we affirm.
1 This matter was assigned to this panel before September 1, 2019, when Judge Simpson
assumed the status of senior judge.
2 SNAP benefits were formerly known as “Food Stamps.” 7 U.S.C. §§2011-2036c.
3 Applicant’s five-person household includes infant twins, I.B. and Z.B., who continue to
receive Medical Assistance (MA) benefits. The twins’ benefits are not at issue in this appeal.

2:57 P.M.

Sealed Record

Commonwealth Court of Pennsylvania

Commonwealth Docket Sheet
Docket Number: 162 CD 2018
Page 1 of 9
May 6, 2021
CAPTION
Steven Burda,
Petitioner
v.
Department of Human Services,
Respondent
CASE INFORMATION
Initiating Document:

Petition for Review

Case Status:

Closed

Case Processing Status:

February 5, 2020

Journal Number:

SP-142-2019

Case Category:

Administrative Agency

Completed

Case Type(s):

RELATED CASES

CONSOLIDATED CASES

COUNSEL INFORMATION
Burda, Steven
Petitioner
Pro Se:
Yes
IFP Status:
Steven Burda
Pro Se:
1171 Thrush Lane
Address:
Audubon, PA 19403
(215) 720-5205
Phone No:
Respondent
Pro Se:
IFP Status:
Attorney:
Law Firm:
Address:
Phone No:
Attorney:
Address:

Phone No:

Human Services, Department of

FT..

Fax No:

Department of Human Services
No
Leisch, Doris M.
PA Department of Human Services
625 Forster Street
Harrisburg, PA 17120
Fax No:
(717) 783-2800
Jenkins, Dale T.
PA Dept of Human Services
7th & Forster Streets
Health & Welfare Bldg, 3rd Floor West
Harrisburg, PA 17120-0001
Fax No:
(717) 783-2800

Neither the Appellate Courts nor the Administrative Office of Pennsylvania Courts assumes any liability
for inaccurate or delayed data, errors or omissions on the docket sheets.

W'y

'

2:57 P.M.

Sealed Record

Commonwealth Court of Pennsylvania

Commonwealth Docket Sheet
Docket Number: 162 CD 2018
Page 2 of 9
May 6, 2021
FEE INFORMATION
Fee Dt
02/07/2018
01/03/2019
12/31/2019

Fee Amt Receipt Dt

Fee Name

90.25 02/08/2018
10.00 01/04/2019
15.00 01/06/2020

Petition for Review - Appellate
2nd Motion for Extension of Time
Petition for Reargument

Receipt Amt

Receipt No
2018-CMW-H-000257
2019-CMW-H-000034
2020-CMW-H-000060

90.25

10.00
15.00

AGENCY/TRIAL COURT INFORMATION
Order Appealed From:
Order Type:
Documents Received:

February 2, 2018
Decision
February 7, 2018

Notice of Appeal Filed:

Court Below:
County:

Department of Fluman Services, Bureau of Hearings and Appeals
Division:

Judge:
Docket Number:

OTN:
460566050-109M, -110M (REMAND)
Judicial District:
ORIGINAL RECORD CONTENT

Original Record Item

Filed Date

Agency Record
Supplemental Record

March 23, 2018
March 26, 2018

Department of Human Services, Bureau
of Hearings and Appeals

Content Description

Date of Remand of Record: March 2, 2021
BRIEFING SCHEDULE
Petitioner
Burda, Steven
Brief
Due: July 20, 2018

Filed: July 20, 2018

Respondent
Department of Human Services
Brief
Due: February 1,2019
Filed: February 1, 2019

Reply Brief
Due: March 4, 2019

Filed: March 4, 2019

Reproduced Record
Due: July 20, 2018
Due: September 7, 2018
Due: November 1, 2018

Filed: July 20, 2018
Filed: August 31,2018
Filed: October 29, 2018
DOCKET ENTRY

Filed Date

Docket Entry / Filer

February 7, 2018

Petition for Review Filed
Burda, Steven

February 9, 2018

Representing

f •

Participant Type
Petitioner

Notice Exited

02/09/2018

Commonwealth Court of
Pennsylvania
February 9, 2018

Application for Stay
BTffaaTSfeven

Exit Date

Amicus Curiae

Neither the Appellate Courts nor the Administrative Office of Pennsylvania Courts assumes any liability
for inaccurate or delayed data, errors or omissions on the docket sheets.

2:57 P.M.

Sealed Record

Commonwealth Court of Pennsylvania

Commonwealth Docket Sheet
Docket Number: 162 CD 2018
Page 3 of 9
May 6, 2021
DOCKET ENTRY
Filed Date

Docket Entry / Filer

Representing

Application to Expedite
Burda, Steven
Document Name: the ruling on the Emergency Petition to Stay

Participant Type

Exit Date

February 20, 2018

Petitioner

February 20, 2018

Send Back for Correction
Commonwealth Court Filing
Office
Document Name: DEFECT: Motion to Expedite must include a proof of service.
Complied with Sendback
Burda, Steven
Document Name: Not Complying

02/20/2018

February 26, 2018

February 26, 2018

Petitioner

Certificate of Service Filed
Burda, Steven

Petitioner

Order Filed
Oler, J. Wesley, Jr.
Document Name: It appearing that petitioner seeks to file an
Comment: application to expedite disposition of his emergency application for stay and has failed
to comply with this Court's defect correction notice dated February 20, 2018, petitioner
is directed to serve and file a proof of service that complies with Pa.R.A.P. 121 (filing
and service), 122 (content and form of proof of service), and 1514(c) (service of
petition for review) within fourteen (14) days of the date of this order, or the application
to expedite will be dismissed.

March 1,2018

March 6, 2018

Filed - Other
Burda, Steven

Petitioner

Answer Filed
Burda, Steven
Document Name: Response to Order of 03/01/2018, and Proof of Service

Petitioner

Certificate of Service Filed
Burda, Steven
Document Name: per Order dated 3/1/18.

Petitioner

Application for Relief
Burda, Steven
Document Name: Application to Seal Case No. 162 CD 2018

Petitioner

March 14, 2018

March 14, 2018

March 14, 2018

March 19, 2018

March 23, 2018

Entry of Appearance
Jenkins, Dale T.

Department of Human Services

Respondent

Agency Record Received - Sensitive Documents
Department of Human Services,
Bureau of Hearings and Appeals

March 26, 2018

Supplemental Record
-E/epartmeftt-of+ftiman-Servieesr
Bureau of Hearings and Appeals

Neither the Appellate Courts nor the Administrative Office of Pennsylvania Courts assumes any liability
for inaccurate or delayed data, errors or omissions on the docket sheets.

03/02/2018

2:57 P.M.

Sealed Record

Commonwealth Court of Pennsylvania

Commonwealth Docket Sheet
Docket Number: 162 CD 2018
Page 4 of 9
May 6, 2021
DOCKET ENTRY
Docket Entry / Filer

Filed Date

Representing

Participant Type

Order Denying Application for Stay
Pellegrini, Dan
Document Name: NOW, April 9, 2018, upon consideration of petitioner's emergency
Comment: application for stay/supersedeas, and it appearing that petitioner has failed to satisfy
the criteria for a stay as set forth in Pennsylvania Public Utility Commission v. Process
Gas Consumer Group, 467 A.2d 805 (Pa. 1983), the application is denied. Petitioner's
application to expedite ruling on the application for stay is denied as moot.
Petitioner's application to seal case is denied as unnecessary since the
record in this matter is already sealed and all filings in this Court must certify
compliance with the Unified Judicial System of Pennsylvania's Public Access Policy
that protects against the disclosure of confidential information and confidential
documents.

April 9, 2018

April 10, 2018

Exit Date
04/10/2018

Briefing Schedule Issued
Commonwealth Court Filing
Office
Application for Extension of Time to File Brief - First Request
Burda, Steven

May 21,2018

Petitioner

Order Granting Application for Extension of Time to File Brief and Reproduced Record
Fizzano Cannon, Christine
Document Name: NOW, May 30, 2018, upon consideration of petitioner's application for

May 30, 2018

05/31/2018

Comment: extension of time to file brief, it appearing that the application is unopposed, the
application is granted in part. It appearing that with this extension, petitioner will have
had more than 100 days within which to prepare a brief, no further extensions will be
granted. Petitioner's brief (4 copies) and reproduced record (4 copies) shall be filed
by July 20, 2017, or the Chief Clerk shall dismiss the petition for review as of course.
Order Filed
05/31/2018
Fizzano Cannon, Christine
Document Name: AMENDED - This Court's order of May 30, 2018 is amended as follows:
Comment: Petitioner's brief (4 copies) and reproduced record (4 copies) shall be filed by July 20, 2018, or the Chief
Clerk shall dismiss the petition for review as of course.

May 31, 2018

In all other respects the May 30, 2018 Order remains the same.
Petitioner's Brief and Reproduced Record Combined Filed
Burda, Steven
Document Name: Only the brief is attached to this entry.

July 20, 2018

Petitioner

Order Filed
08/09/2018
Pellegrini, Dan
Document Name: Upon review, it appearing that petitioner has PACFiled a combined brief and reproduced record and

August 8, 2018

Comment: has mailed in four (4) copies of the brief but no copies of the reproduced record, petitioner is directed to
submit four (4) paper copies of the reproduced record within 14 days from the exit date of this order or the
petition for review shall be dismissed as of course.
August 17, 2018

Application for Extension of Time to File Brief - First Request
Department of Human Services
Jenkins, Dale T.

Respondent

Neither the Appellate Courts nor the Administrative Office of Pennsylvania Courts assumes any liability
for inaccurate or delayed data, errors or omissions on the docket sheets.

2:57 P.M.

Sealed Record

Commonwealth Court of Pennsylvania

Commonwealth Docket Sheet
Docket Number: 162 CD 2018
Page 5 of 9
May 6, 2021

E

DOCKET ENTRY
Docket Entry / Filer

Filed Date

Representing

Participant Type

Order Granting Application for Extension of Time to File Respondent Brief
Krimmel, Michael
Document Name: Now, August 20, 2018, upon consideration of respondent's request for
Comment: extension of time to file briefs, and it appearing that said request is not opposed, said
request is granted and respondent's brief (4 copies) shall be filed on or before
September 21,2018.

August 20, 2018

Exit Date

08/21/2018

Application for Relief
Petitioner
Burda, Steven
Document Name: Expedited Application for Relief to Submit 1 Copy of Reproduced Record on Case No. 162 CD 2018

August 22, 2018

Order Granting Application for Relief
Colins, James G.
Document Name: NOW, August 27, 2018, upon consideration of petitioner's application for

08/28/2018

August 27, 2018

Comment: relief to submit one copy of the reproduced record, it appearing that petitioner has
alleged that the cost of reproduction is out of proportion to the amount involved or
other sufficient reason, see Pa.R.A.P. 2151(d), the application is granted. Petitioner
shall file one (1) unbound paper copy of the reproduced record on or before September
7, 2018, or this appeal will be dismissed as of course.
Respondent's brief (4 copies) shall be filed and served on or before
September 28, 2018.
August 31, 2018

Petitioner's Reproduced Record Filed
Burda, Steven

Petitioner

September 4, 2018

Compliance with Order
Petitioner
Burda, Steven
Document Name: Compliant with Order dated 8/27/2018 - received (1) Reproduced Record

09/06/2018
Order Filed
Per Curiam
Document Name: Petitioner shall file an amended RR (1 copy) by 10-5-18 or the case will be dismissed. Respondent’s
Comment: brief shall be filed and served within 30 days of service of the amended RR.

September 5, 2018

Application for Stay
Petitioner
Burda, Steven
Document Name: Emergency Application for Stay (Supersedeas) pending the Disposition of the Case on 162 CD 2018

October 3, 2018

October 5, 2018

Application for Emergency Relief
Burda, Steven

Petitioner

Neither the Appellate Courts nor the Administrative Office of Pennsylvania Courts assumes any liability
for inaccurate or delayed data, errors or omissions on the docket sheets.

2:57 P.M.

Sealed Record

Commonwealth Court of Pennsylvania

Commonwealth Docket Sheet
Docket Number: 162 CD 2018
Page 6 of 9
May 6, 2021
DOCKET ENTRY
Docket Entry / Filer

Filed Date

Representing

.j

Participant Type

Order Filed
Covey, Anne E.
Document Name: NOW, October 18, 2018, upon consideration of petitioner's application

Exit Date

10/19/2018

October 18, 2018

Comment: for emergency relief, in which he seeks to completely dispense with the filing of a
reproduced record, the application is denied. It appears that the reproduced record has
been the subject of at least four Court orders in response to petitioner's applications,
each order warning that failme to comply would result in the dismissal of the case. The
most recent order, issued on September 5, 2018, directed petitioner to file an amended
reproduced record by October 5, 2018, or the petition for review would be dismissed
as of course. Rather than filing a proper reproduced record, petitioner has filed his
seventh application and fourth "emergency" application in this case. Petitioner has
failed to comply with the Court's September 5, 2018 order. Accordingly, petitioner
must file a conforming amended reproduced record (one unbound paper copy) no later
than November 1,2018, or suffer sanctions, including the dismissal of the petition for
review.
Respondent's brief (4 copies) shall be filed and served, if at all, within 30
days of service of the amended reproduced record.
Order Denying Application for Stay
Wojcik, Michael H.
Document Name: NOW, October 29, 2018, upon consideration of petitioner's "emergency

10/30/2018

October 29, 2018

Comment: application for stay (supersedeas).. .,"to which no answer was filed, and it appearing
that by order dated April 9, 2018, this Court previously denied petitioner's "emergency
application for stay (supersedeas).... ” for failure to satisfy the criteria for a stay set
forth in Pennsylvania Public Utility Commission v. Process Gas Consumer Group,
467 A.2d 805 (Pa. 1983), the instant emergency application is denied. This Court's
order of April 9, 2018 is confirmed.
October 29, 2018

Petitioner's Reproduced Record Filed
Burda, Steven

Petitioner

Document Name: Amended
November 28, 2018

Application to Vacate
Petitioner
Burda, Steven
Document Name: App. to Vacate Order of 10/29 and Reinstate Pet's App. For Stay as Filed on 10/03; or in the
Comment: Alternative, to Consider This Filing as Perfected Application for Stay
Order Denying Application to Vacate
Simpson, Robert E.
Document Name: NOW, December 3, 2018, upon consideration of petitioner’s "application to

12/04/2018

December 3, 2018

Comment: vacate order of October 29, 2018 and to reinstate petitioner’s application for stay ...,"
which this Court shall treat as an application for reconsideration of the October 29,
2018 order, the application is denied as untimely. Pa. R.A.P. 2542.
December 4, 2018

Application for Extension of Time to File Brief - First Request
Department of Human Services
Jenkins, Dale T.

Respondent

Neither the Appellate Courts nor the Administrative Office of Pennsylvania Courts assumes any liability
for inaccurate or delayed data, errors or omissions on the docket sheets.

2:57 P.M.

Sealed Record

Commonwealth Court of Pennsylvania

Commonwealth Docket Sheet
Docket Number: 162 CD 2018
Page 7 of 9
May 6, 2021
DOCKET ENTRY
Docket Entry / Filer

Filed Date

Representing

Participant Type

Exit Date

12/07/2018

December 6, 2018

Order Granting Application for Extension of Time to File Respondent Brief
Brown, Kristen W.
Document Name: Now, December 6, 2018, upon consideration of respondent's unopposed
Comment: request for extension of time to file briefs, the request is granted. Respondent’s
brief (4 copies) shall be filed on or before January 3, 2019.

January 3, 2019

Application for Extension of Time to File Brief - Second Request
Department of Human Services
Jenkins, Dale T.

Respondent

Order Granting Application for Extension of Time to File Respondent Brief
Brobson, P. Kevin
Document Name: NOW, January 8, 2019, upon consideration of respondent's unopposed

01/09/2019

January 8, 2019

Comment: second motion for extension of time to file brief, the motion is granted. It appearing
that with this extension, respondent will have had more than 90 days within which
to prepare a brief, no further extensions will be granted.
Respondent shall file its brief (4 copies) on or before February 1,2019,
or respondent will be precluded from participating in oral argument, if scheduled,
and from filing a brief.
February 1, 2019

February 18, 2019

Respondent's Brief Filed
Jenkins, Dale T.

Department of Human Services

Application for Extension of Time to File Brief - First Request
Burda, Steven

Respondent

Petitioner

Order Granting Application for Extension of Time to File Petitioner Paperbook
McCullough, Patricia A.
Document Name: NOW, February 21,2019, upon consideration of petitioner's

February 21, 2019

02/22/2019

Comment: application for enlargement of time to file reply brief (application), the application
is granted in part and denied in part. Petitioner shall file and serve his reply brief (4
copies) on or before March 4, 2019.
It appearing that with this extension, petitioner will have had more than
two times the typical amount of time to file a reply brief, no further extensions will
be granted.
March 4, 2019

Petitioner's Reply Brief Filed
Burda, Steven

Petitioner

Order Directing Submission on Brief
Per Curiam
Document Name: AND NOW, this 29th day of March, 2019, the above Petition for Review

March 29, 2019

04/01/2019

Comment: shall be submitted on briefs, without oral argument, unless otherwise
ordered.
December 17, 2019

Affirmed
Simpson, Robert E.
Document Name: Memorandum Opinion (20 pages)
Comment: The order of the DHS is AFFIRMED.

December 31, 2019

12/17/2019

Application for Reconsideration/Reargument
Petitioner
Burda, Steven
Document Name: Application for Reconsideration and Request for Review En Banc of 12/17/2019 Order and Opinion

Neither the Appellate Courts nor the Administrative Office of Pennsylvania Courts assumes any liability
for inaccurate or delayed data, errors or omissions on the docket sheets.

2:57 P.M.

Sealed Record

Commonwealth Docket Sheet

Commonwealth Court of Pennsylvania

Docket Number: 162 CD 2018
Page 8 of 9
May 6, 2021
DOCKET ENTRY
Docket Entry / Filer

Filed Date

Representing

Participant Type

Exit Date

December 31, 2019

Application for Reconsideration
Burda, Steven
Petitioner
Document Name: Application for Reconsideration of Order & Opinion of 12/17/19 and Review En Banc

February 5, 2020

Order Denying Application for Reconsideration/Reargument
Leavitt, Mary Hannah
Document Name: NOW, February 5, 2020, upon consideration of Petitioner's
Comment: application for reconsideration (RECON I), the application is-denied.

02/05/2020

Order Denying Application for Reconsideration
Leavitt, Mary Hannah
Document Name: NOW, February 5, 2020, upon consideration of Petitioner's
Comment: second application for reconsideration (RECON II), the application is denied.

02/05/2020

February 5, 2020

Petition for Allowance of Appeal to PA Supreme Court Filed
Burda, Steven
Document Name: 384 MAL 2020
Comment: 96 MT 2020

February 28, 2020

Petitioner

Application for Stay
Petitioner
Burda, Steven
Document Name: Application for Stay or Supersedeas of 162 CD 2018 Pending Disposition of 384 MAL 2020 at the
Comment: Supreme Court of Pennsylvania as Permitted Pursuant to PA RAP 105 (a) and 231 Pa Code 126

December 15, 2020

Order Denying Petition for Allowance of Appeal to PA Supreme Court
Per Curiam
Document Name: 384 MAL 2020
Comment: 384 MAL 2020

12/29/2020

Order Filed
Per Curiam
Document Name: because the Pennsylvania Supreme Court's order dated December 29, 2020 denied

01/13/2021

December 29, 2020

January 13, 2021

Comment: Petitioner's petition for allowance of appeal,
Petitioner's application "for stay or supersedeas of 162 CD 2018 pending disposition
of 384 MAL 2020..." is dismissed as MOOT.
March 2, 2021

Remitted

Commonwealth Court Filing
Office
Document Name: PACFiled Record. No acknowledgement needed.
SESSION INFORMATION
Journal Number:
Consideration Type:
Listed/Submitted Date:

SP-142-2019
Submitted on Briefs
April 5, 2019

Panel Composition:
rfieTtonorable Kobert t. Simpson
The Honorable Anne E. Covey
The Honorable Ellen Ceisler

"dodge"
Judge
Judge

Neither the Appellate Courts nor the Administrative Office of Pennsylvania Courts assumes any liability
for inaccurate or delayed data, errors or omissions on the docket sheets.

2:57 P.M.

Sealed Record

Commonwealth Docket Sheet

Commonwealth Court of Pennsylvania

Docket Number: 162 CD 2018
Page 9 of 9
May 6, 2021
DISPOSITION INFORMATION
Final Disposition:
Related Journal No:
Category:
Disposition:

Yes

Disposition Comment:
Dispositional Filing:
Filed Date:

The order of the DHS is AFFIRMED.
Memorandum Opinion
12/17/2019 12:00:00AM

Decided
Affirmed

Judgment Date:
Disposition Author:
Disposition Date:

Simpson, Robert E.
December 17, 2019

Filing Author:

Simpson, Robert E.

REARGUMENT / RECONSIDERATION / REMITTAL
Filed Date:
Disposition:
Disposition Date:

December 31,2019
Order Denying Application for Reconsideration
February 5, 2020

Record Remittal:

March 2, 2021

Neither the Appellate Courts nor the Administrative Office of Pennsylvania Courts assumes any liability
for inaccurate or delayed data, errors or omissions on the docket sheets.

